<html>
<title> - MILITARY READINESS: IMPLICATIONS FOR OUR STRATEGIC POSTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-114]
 
       MILITARY READINESS: IMPLICATIONS FOR OUR STRATEGIC POSTURE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 14, 2008


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
44-782                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Michael Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, February 14, 2008, Military Readiness: Implications for 
  Our Strategic Posture..........................................     1

Appendix:

Thursday, February 14, 2008......................................    31
                              ----------                              

                      THURSDAY, FEBRUARY 14, 2008
       MILITARY READINESS: IMPLICATIONS FOR OUR STRATEGIC POSTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Flournoy, Michele A., President and Co-Founder, Center for a New 
  American Security (CNAS).......................................     5
Kosiak, Steven M., Vice President of Budget Studies, Center for 
  Strategic and Budgetary Assessments (CSBA).....................     8
Pickup, Sharon L., Director, Defense Resources and Business 
  Transformation Issues, U.S. Government Accountability Office, 
  accompanied by William Solis, Director, Defense Capability and 
  Management, Government Accountability Office...................    11

                                APPENDIX

Prepared Statements:

    Flournoy, Michele A..........................................    35
    Kosiak, Steven M.............................................    44
    Pickup, Sharon L.............................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cummings.................................................    73
       MILITARY READINESS: IMPLICATIONS FOR OUR STRATEGIC POSTURE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 14, 2008.
    The committee met, pursuant to call, at 11:30 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, our hearing will come 
to order. We meet today to consider the implications of our 
strategic posture that is created by the state of our military 
readiness.
    Our witnesses today are Michele Flournoy, the President and 
Co-Founder of the Center for a New American Security and a 
former Principal Deputy Assistant Secretary of Defense; Steve 
Kosiak, the Vice President of Budget Studies at the Center for 
Strategic and Budgetary Assessments; and Sharon Pickup, a 
Director of Defense Capabilities Management at the Government 
Accounting Office. We thank you each for being with us today.
    Our military has been at war for over six years. And it is 
not any secret that this has strained and stressed our armed 
forces, in particular, the Army and, of course, the Marine 
Corps. The Navy and the Air Force are also being stretched. And 
the constant strain of Iraq has meant that our personnel are 
under stress, our equipment is wearing out, and our brigades 
have almost no time to train, and then, of course, causes a 
serious problem.
    In the past 30 years, our Nation has been involved in 12 
significant military actions, several of which were major 
conflicts force-on-force, 4 of them to be exact. We expected 
none of them actually. And yesterday, we heard from the 
intelligence community on the global security environment.
    Our country, our interests, and our allies face a multitude 
of potential threats all over the world. We have to be ready 
and capable in the days ahead. And just last week, Admiral 
Mullen, the chairman of the Joint Chiefs of Staff, sat at this 
witness table and said that our current strategic risk is 
significant.
    So I am hopeful that our witnesses today can help explain 
how the current state of readiness affects the strategic 
posture of our forces around the world. Every member of the 
Armed Services Committee should understand the level and 
significance of the strategic risk of an expected contingency 
arises. What will be the cost to us in lives as well as in 
dollars? It is that cost that we question as to whether we are 
truly prepared to accept.
    We must also evaluate the initiatives and programs which 
the Department of Defense is proposing to address our strategic 
risk and determine whether they are realistic, and whether 
their scope and their pace is sufficient to protect national 
security. It is our task to do our constitutional duty to raise 
and maintain the military as well as to write the rules and 
regulations therefore.
    I hope that our witnesses today will be able to give us 
some significant help. And I thank you each for being with us 
today.
    Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, for holding this 
hearing. I want to join you in thanking our witnesses for being 
here and having to put up with this crazy schedule that left 
you at the desk here for a long time before we were able to 
engage with you.
    Thanks for the hearing. I think it is very timely.
    Yesterday the committee received testimony from key members 
of the intelligence community on the current and foreseeable 
international security environment, including challenges that 
are increasing in complexity, diversity, and range. So today it 
is against that backdrop that we further examine the 
relationship between our military's readiness and our Nation's 
strategic posture.
    And I want to again thank our witnesses for being here. 
This topic, the relationship between readiness and strategic 
decision making has been at the crux of robust congressional 
debate over the last couple of years. And as my good friend, 
Chairman Skelton, knows, the committee wrestled hard and long 
during the last Congress to review the range of war fighting 
and other strategic requirements of the national military 
strategy to try to determine what future structure and 
capabilities would be necessary.
    Clearly, that exercise highlighted not only the significant 
equipment, the force structure, and capabilities shortfalls 
that existed prior to September 11, 2001, but also the 
challenges facing this Nation trying to rebuild, reset, 
modernize, transform, and grow our armed forces while actively 
engaging in combat. Our committee members, and especially those 
on the Readiness Subcommittee, have engaged regularly in 
discussions about the impact of ongoing operations on our 
military personnel and equipment.
    Recently we have begun to analyze the President's fiscal 
year 2009 budget request and restarted dialogue on the 
potential advantages of spending four percent of GDP, of our 
gross domestic product, on defense. All these conversations 
highlight the relationship between the current readiness of our 
forces and the big picture decisions that will shape their 
future readiness.
    With that said, I think sometimes we lose sight of two 
important facts, both of which were highlighted by Secretary of 
Defense Gates in his testimony last week. The first is that the 
Defense Department readiness efforts are focused at least in 
the Army on fighting the wars that we are in in both 
Afghanistan and Iraq. And the forces that are being sent there 
are fully trained and are ready when they go.
    In fact, some might argue that many of the forces fielded 
today have the most combat experience of any force in recent 
memory. They might also argue that it is in large part because 
of this experience that the military surge is succeeding in 
Iraq and that our special forces and others are excelling in 
their missions around the world. Simply put, when compared to 
other nations and when compared to historical examples, our 
military men and women today are unrivaled.
    In fact, Ms. Flournoy, in her written testimony, today 
observed that while in Iraq earlier this month she witnessed, 
``A U.S. military that is the most experienced, adaptive, 
professional, and capable force this country has ever 
fielded.'' These war fighters are trained. They are capable. 
They are accomplishing their missions.
    The other fact that Secretary Gates emphasized last week is 
that current readiness ratings are not just the result of 
ongoing operations. While Operations Iraqi Freedom and Enduring 
Freedom have clearly highlighted the very real readiness 
challenges our soldiers, sailors, airmen, and Marines face, he 
argued that we need perspective.
    He said, ``In the mid-1990's, readiness was considered 
differently. For example, on equipment, readiness was 
considered a 65 percent fill. Units that had 65 percent were 
considered to be in the green. Those counting rules were 
changed. And so, now readiness is at the 100 percent level for 
equipment. And so, many of the units are in the red. And they 
are in the red for specific kinds of missions.''
    So it seems to me that the goalposts were moved and that 
contrasting the readiness of current forces to the readiness of 
past forces is not necessarily an apples-to-apples comparison. 
I wonder how the readiness ratings of the Army, Navy, Air 
Force, and Marine Corps of the first Gulf War would fare if 
held up against today's forces.
    In fact, we looked at that once, I believe, with the unit 
of the 101st Airborne with all of the new equipment that we now 
have, which is now considered to be standard and the lack of 
which will give you a poor readiness rating. And looking, as I 
recall, at one of the units of the 101st Airborne in 2000, it 
would have, under today's rating system, been very low, 
although it had enormous combat capability at the time.
    Finally, I also wonder how we can best address unique 
challenges facing the readiness of each military service and 
how the recently delivered budget request aims at reducing 
readiness shortfalls. For example, it has become clear that the 
Air Force and Navy readiness suffer from the burden of aging 
equipment. Isn't this particular challenge due in part to 
woefully inadequate defense spending in the 1990's? And what 
steps are we taking to rectify that shortfall?
    And that is, of course, the old shortfall that the former 
chief of the Army used to refer to as the holes in the yard, 
the funding holes. Also in recognizing that Army and Marine 
Corps readiness challenges are primarily personnel related, I 
wonder how the Grow the Force initiatives will impact the 
longer term readiness of those services. What other steps 
should we take to address these deficiencies?
    Also the Army and Marine Corps readiness challenges extend 
across personnel, training, and equipment areas and are made 
more difficult to solve by the Grow the Force initiatives. As I 
see it, we are asking the Army and Marine Corps to tear down 
and rebuild themselves as fighting forces while at the same 
time asking them to conduct high operations tempo, difficult 
missions that are in this Nation's interest.
    Our challenge is to understand best the additional steps we 
should be taking to address those readiness deficiencies. We 
must also acknowledge the full cost of achieving readiness.
    In 2006, this committee inserted $20 billion into the 
procurement and operations and maintenance accounts to address 
many shortfalls in our combat forces. We are just today 
beginning to see gains being made.
    Long-term procurement items and the cycling of equipment 
through depots can't occur overnight. We will not see the 
benefits of Grow the Force overnight, either. These things take 
time. And we must remain vigilant to ensure steady progress.
    At the end of the day, there is a strong bipartisan support 
to engage in an open, frank dialogue about the personnel, 
equipment, and training challenges that comprise our military's 
readiness. It seems to me that part of the solution should be 
to provide adequate funding to support efforts to increase 
force readiness, whether it is the Grow the Force initiatives, 
key research and development programs or procurement of 
critical equipment.
    In my view, we should begin by spending at least four 
percent of GDP on defense. And I ask what more should we be 
thinking about.
    So to our distinguished panel, thanks a lot for being with 
us today.
    And, Mr. Chairman, one thing that I think we need to do is 
this. We have had lots of units move into the theater, 
especially in Iraq, and come back without major pieces of their 
equipment. We have had major evolutions of equipment while in 
Iraq.
    For example, the changeover from what I call the soft 
Humvees to Marine Armor Kit (MAK)-kitted Humvees to up-armored 
114s, for example, now to mine resistant ambush protected 
vehicles (MRAPs). And part of that exercise and that transition 
has been to have large stables of equipment parked at various 
areas around Iraq. For example, we discovered some 1,800 MAK-
kitted Humvees from the Marine changeover from MAK kits to 
114s, I believe at Takatum, 1,800 vehicles, probably with very 
low mileage on those vehicles, parked there.
    Also in talking to members of the Guard and Reserve, there 
are enormous expenditures of domestic platforms like big 
trucks, big construction equipment presently in Iraq. And in my 
estimation, we have a fairly vague accounting for how much we 
have got.
    So I think one thing we ought to do is figure out first 
before we move out and try to figure out exactly what we need 
for readiness, let us figure what we have got and let us find 
out what we have got. And I haven't seen what I would consider 
to be a complete accounting of the major platforms and the sub-
platforms, the less important platforms that are in Iraq and 
Afghanistan right now.
    And the last thing, I think it would be bad for this 
country if some of these things get lost in the shuffle and we 
end up seeing major pieces of U.S. military equipment sold for 
a dime on the dollar in some type of a foreign military sale 
while you have a corresponding inadequacy in that unit that 
comes back from the theater without that particular equipment. 
So let us figure out what we have got, what we need to become 
ready.
    And let us all acknowledge that there is no force in the 
world that is more ready than when it is totally at rest, when 
it is totally unused. At that point when it is totally at rest 
and it is totally in garrison with all of its equipment, we 
will all stipulate that at that point it has the highest amount 
of--the highest availability of soldiers, personnel, and 
equipment than it will ever have.
    When you move out into the war fighting theater and you 
start exercising both the equipment and the personnel, at that 
point, by definition, your readiness rate and your availability 
rate goes down. That doesn't mean that you have lost combat 
capability. And I would argue that our soldiers and our units 
with the combination of personnel and equipment have never been 
more combat capable.
    Having said that, I think it is important for us to take an 
inventory of, by golly, what have we got. What do we have right 
now parked in theater, in Iraq and Afghanistan? Let us get a 
handle on that. And if possible, I think we ought to match up 
some of that stuff, especially stuff that was taken from the 
Guard, which now may be parked in depot in theater and may not 
be in such a rate of utilization that it has to go through full 
depot maintenance.
    If we can, I think we ought to start looking at marrying up 
some of that equipment that was left by Guard units when they 
went over and returned to the U.S. without their equipment, 
marrying some of that equipment up with units that have a 
deficiency. And after the dust settles on that exercise, let us 
see what we need.
    So thank you, Mr. Chairman, for the hearing. I look forward 
to the testimony.
    The Chairman. Thank you very much. Please note there is 
another vote on. But let us begin and do our very best.
    Michele Flournoy.

  STATEMENT OF MICHELE A. FLOURNOY, PRESIDENT AND CO-FOUNDER, 
           CENTER FOR A NEW AMERICAN SECURITY (CNAS)

    Ms. Flournoy. Thank you, Mr. Chairman, Mr. Hunter, 
distinguished members of the committee. Thank you for giving me 
the opportunity to speak to you today about the readiness of 
the U.S. military for current and future missions and ways that 
we can strengthen our strategic posture.
    I would like to address both the question of readiness and 
some practical steps we can take to improve the situation. 
Since the attacks of September 11th, I think it is fair to say 
that our military has been performing Herculean tasks to 
protect and advance our national security. And as Mr. Hunter 
mentioned, having just spent two weeks in Iraq, I can 
personally attest to the fact that the military we have today 
is probably the most experienced, adaptive, professional, and 
capable force we have ever fielded as a Nation.
    But more than six years of continuous, large-scale 
operations have also taken a toll on these forces. Multiple 
back-to-back deployments with shorter dwell times between 
longer tours have put unprecedented strain on military 
personnel and their families, especially the Army where 
soldiers are now deploying with 15 months with less than a year 
or so between tours.
    And we can see the results of that in terms of increases in 
suicide rates, post-traumatic stress disorder (PTSD) cases, 
alcoholism, divorce, et cetera, huge stresses on the personnel 
of the force. Given the high tempo of operations and the very 
harsh operating environment, equipment is also being worn out, 
lost in battle or damaged almost more quickly than the services 
can repair or replace it. Army equipment in Iraq and 
Afghanistan is wearing out almost in some cases nine times the 
normal rate.
    Equipment scarcity has led to the widespread practicing of 
cross-leveling between units. That means drawing equipment and 
personnel from one unit to plus it up in another. And that has 
been particularly acute in the Reserve units, which have only a 
small portion of their authorized level of equipment at this 
point.
    So far, the good news is that these measures have, as was 
said before, met the readiness needs of units in theater. But 
they have also sharply decreased the readiness of our 
nondeployed units and impeded their ability to train.
    Meanwhile, compressed training time between deployments 
mean that many of our personnel have the time to train only for 
the operations that are immediately before them, either Iraq or 
Afghanistan, not for missions over the horizon. Army units are 
literally racing to get certified for their next deployment. 
This just-in-time training condition has reduced our readiness 
for the full spectrum of operations and, you know, for a range 
of possible contingencies, and has created a larger degree of 
strategic risk.
    While this Congress has rightly authorized an expansion of 
our Nation's ground forces which should reduce some of the 
strain and some of the risk, recruiting and retention have 
become much greater challenges for the services at a time when 
they actually need to keep more experienced, high-quality 
warriors in the force. The Army, in particular, has had to take 
a number of fairly extraordinary measures to meet its 
recruiting targets since 2005.
    It has done things like offering increasing enlistment 
bonuses to attract what is very much a shrinking population of 
young Americans who can meet the military standards, only 3 in 
10. But it has also taken some potentially worrisome steps, 
most notably, increasing the number of waivers granted for 
enlistment by 18 percent.
    Right now, one in five accessions has to have a waiver to 
be accepted into the force and also accepting a larger 
percentage of people who do not have high school diplomas. The 
most worrisome figure in my mind is the increase of the use of 
moral waivers by 160 percent since 2003.
    The Army is also beginning to face some retention 
challenges, particularly as it grows the force and has to 
retain more noncommissioned officers and officers to fill out a 
larger structure. While company grade loss rates have remained 
fairly stable in recent years, there is some cause for concern, 
particularly the percentage of recent West Point classes that 
are choosing not to remain in service after year five or six. 
We have lost about half of the class of 2000 and 2001, whereas 
the historical rate is closer to about 40 percent.
    Meanwhile, the number of officers the Army needs has grown 
by about 8,000 since 2002 with 58 percent of this growth in the 
grades of captain and major. This has created very significant 
shortfalls in both of those grades. As the Army expands, it is 
going to face some real challenges in trying to increase 
retention, again, to fill out the ranks of a larger force.
    So the bottom line here is that the readiness of our 
military is just barely keeping pace with the demands of 
current operations. And in the Army, in particular, there is 
only a minimal number of brigade combat teams (BCTs) that are 
considered fully ready who are not already deployed. In other 
words, we don't have an adequate number of ready units in 
reserve for other possible contingencies.
    And the cost of building and regaining readiness are 
increasing dramatically. In my written statement I laid out 10 
steps that we could take to try to increase the supply of 
forces available and improve readiness conditions.
    We really have to step up to the challenge of both enabling 
our deployed forces to accomplish their assigned mission, but 
also making sure that we are investing adequately to be sure 
the military is ready for future contingencies. So the 10 
things I would propose in my limited amount of time is first, 
increase the supply of ground forces. Go ahead and grow the 
Army, the Marine Corps Special Operations Forces as planned to 
try to achieve at least a minimum of a one-to-two deployment to 
dwell time ratio.
    But the caveat I would emphasize to you is we have got to 
make sure that the pace of expansion does not outstrip our 
ability to recruit the quality of candidates we need for this 
force. And if we can't recruit the quality we need, we should 
vary the pace accordingly. We should slow it as necessary to 
ensure that we maintain the highest quality standards.
    Two, adjust force commitments based on conditions on the 
ground in Iraq and Afghanistan. And as conditions permit over 
time, seek to increase the dwell time between deployments to 
reduce the strain on the force and their families.
    Number three, over time, very important, try to reestablish 
a larger reserve of ready ground forces, I would say at least 
several brigades, to enable rapid response to other potential 
contingencies that may arise in the future. We don't have that 
reserve now, and that is one of the things that is creating 
strategic risk. We need to reestablish it as a matter of urgent 
priority.
    Number four, fully fund our service reset costs as well as 
investment in the equipment and personnel necessary for a 
larger force.
    Five, continue to assess and enhance our recruiting and 
retention incentives. And particularly, I would underscore the 
importance of offering increased educational and professional 
development opportunities for those who have experienced 
multiple combat tours.
    Six, improve force management. Get it down to the 
individual level so that individuals who are returning from 
deployment who end up changing units don't go right back out 
the door to deployment again without adequate time at home in 
between.
    Seven, very important, we have got to look at the balance 
between the operational Army and the institutional Army and try 
to shift more billets, more slots from the institutional Army 
to the deployable Army so that we have a larger operational 
pool to deal with and to reduce strain over time.
    Eighth, invest in recapitalizing and modernizing the aging 
fleet of both the Air Force and the Navy. And I think in recent 
years this has not been given adequate priority.
    Nine, expand the variety of service contracts we offer to 
personnel so that there is--it is easier to move between 
Reserve duty, active duty, easier to take time out of the 
military and then come back for qualified personnel.
    And finally, although this is a little bit beyond the 
purview of this committee, it is very important to invest in 
the deployable operational capacity of our civilian agencies to 
reduce the burden on the military and increase the chances of 
mission success.
    So, Mr. Chairman, my bottom line is that our Nation's armed 
forces have gone above and beyond the call of duty in recent 
years. We owe it to them to give them the resources they need, 
not only to meet the demands of current missions, but also to 
be fully ready and prepared for possible contingencies in the 
future. Thank you very much.
    [The prepared statement of Ms. Flournoy can be found in the 
Appendix on page 35.]
    The Chairman. Thank you very much.
    Mr. Kosiak, please.

    STATEMENT OF STEVEN M. KOSIAK, VICE PRESIDENT OF BUDGET 
 STUDIES, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS (CSBA)

    Mr. Kosiak. I want to thank Chairman Skelton, Congressman 
Hunter, and the rest of the members of the committee for 
inviting me to testify here this morning on this very important 
subject.
    The U.S. military has been under enormous strain for the 
past five plus years beginning especially after 9/11 and, even 
more so, after the U.S. invasion of Iraq in 2003. In my 
testimony I want to focus on three key readiness-related 
elements of the Defense Department's plans. First, reset the 
issue of reset; second, the issue of force expansion; and 
third, the longer-term issue of modernizing and transforming 
the U.S. military. And as requested, I will focus primarily on 
budgetary aspects of these issues.
    First, a few words about reset. In 2006, the Army estimated 
that they would need something like $13 billion a year to pay 
for the costs of repairing and replacing equipment destroyed 
and damaged in Iraq and Afghanistan. It also estimated at that 
time that they would need something like that amount per year 
for a couple of years after the wars ended in Iraq and 
Afghanistan or wound down in order to fully recover their 
readiness levels.
    Since then, the amount of funding provided for reset and 
for Army procurement has grown dramatically. Assuming that 
Congress ultimately approves all of the money that has been 
requested for 2008 in the war supplemental, the Army will have 
been provided, over about 8 years in these war supplementals, 
about $100 billion for procurement.
    By contrast or by comparison, the Congressional Budget 
Office estimates that if you add up the value of all of the 
equipment that the Army has, all of the major equipment that 
the Army has in theater in Iraq and Afghanistan, you come to a 
total of about $30 billion. These figures suggest that the Army 
is receiving, I think, sufficient funds for reset.
    That said, I want to be clear. I do think the Army faces 
some very severe challenges in trying to recover from the 
operations in Iraq and Afghanistan. One of the biggest problems 
is sort of related, I think, to industrial base capacity.
    We have put in a lot of money into getting equipment back 
into the field, but it takes a lot of time, sometimes two years 
between a time a system is taken out to be overhauled and it 
gets back to the services or from the time money is 
appropriated and it gets off the assembly line if it is a new 
piece of equipment. And this is a big problem and has created, 
I think, very significant problems in terms of readiness, 
especially for nondeployed units.
    A more serious problem even than that, I think, is the 
problem that the war has created for recruitment and retention 
for the Army, which has--recruitment, in particular, which has 
suffered some significant degradation over the past couple of 
years. And I think this is potentially a very serious long-term 
problem.
    I think we all hope that this is a sort of a temporary 
blip. But even if it is a blip, it is going to take years and 
perhaps decades to work its way through the system. And if it 
is more than a blip, this is a very serious problem that will 
need to be addressed. And it is partly a budgetary problem. 
Although I don't think it is primarily a budgetary problem.
    The second area I want to comment on are plans to expand 
the size of the military. The Congressional Budget Office has 
estimated that expanding the Army and the Marine Corps by the 
92,000 troops that have been suggested by the Administration 
will cost about $108 billion over 5 years and perhaps $10 
billion or $15 billion a year thereafter.
    If the current plan is carried out as envisioned, we will 
basically buy additional combat brigade teams for the Army. 
This will have a relatively modest impact on our ability to 
carry out long-term, large-scale stability operations, maybe 
increasing that capability by 15 or 20 percent.
    By contrast, the impact could be far greater if we were to 
use these people to fill out additional new types of units 
specializing especially on training, equipping, and advising 
indigenous forces. And this could give us, I think, much 
greater bang for the buck in terms of our ability to carry out 
long-term, large-scale stability operations.
    The Army argues that it doesn't now and will not, even 
after the expansion, have enough troops to fill out specialized 
units, that it has to have all of its units be, what they call, 
full spectrum capable units. And this essentially means, I 
think, general purpose forces, which have traditionally been 
focused on conventional military operations.
    It is difficult to see why, especially given the burden of 
stability operations, we need to really focus on buying 
additional capability for conventional warfare operations. As 
such, absent a change in course by the Army, which would 
involve, I think, rethinking how they are going to add these 
additional troops, I think it is far from clear that the 
investment in additional--the expansion of the Army, in 
particular, necessarily represents a cost-effective investment 
for the United States.
    The third and last area I want to comment on are the 
services' modernization plans. Implementing the current plan, 
the current modernization plans, will require increasing 
funding for procurement from about $99 billion in this year's 
budget, in the 2008 budget, in the base budget to about $135 
billion or $140 billion a year and sustaining at that level 
over the long term. That is to actually execute the current 
long-term modernization plan.
    This may be difficult to do, given internal pressures 
within the Department of Defense (DOD), especially people-
related costs, which will be exacerbated by plans to increase 
the size of the Army and Marine Corps and also by potential 
downward pressure caused by, among other things, for example, 
efforts to reduce the deficit in future years. In any event, I 
think there are some areas of the services' modernization plans 
where the plans may not be appropriately aligned with what our 
real requirements are.
    Among the most questionable plans is the projected purchase 
of some 2,500 F-35 Joint Strike Fighters. I think this is going 
to be a great fighter. Clearly, we need to buy some number of 
these systems. But do we really need to buy 2,500 of these 
systems at a price tag that is going to amount to about $300 
billion?
    The F-35 also doesn't seem quite aligned with--the focus on 
short-range aviation doesn't seem quite aligned with potential 
future conflicts where we may have a difficult time getting 
access to regions, as we had difficult times getting access in 
the case of both Afghanistan and Iraq.
    Next to the F-35 program, the most costly Defense 
Department modernization program is the Future Combat System, 
the FCS. This program is estimated by DOD to cost about $160 
billion. Other estimates place the cost upwards of $200 billion 
or even $230 billion.
    Unfortunately, I am concerned that the design of the Future 
Combat System may be focused first and foremost on an ability 
to defeat conventional kinds of opponents, Republican Guard-
type opponents that we defeated decisively in Iraq in 2003. 
This is perhaps the least likely kind of adversary we are going 
to face in the future and certainly very different from the 
kinds of adversaries we are currently facing in Iraq and 
Afghanistan.
    There is also, I think, a danger that the host cost of the 
future combat system, which is aimed at only equipping about a 
third of the active duty Army, will make it very difficult to 
adequately fund other areas of the Army, the other two-thirds 
of the Army to adequately modernize and maintain readiness of 
that other two-thirds of the Army. And that other two-thirds is 
going to be very critical if we do stay in Iraq or Afghanistan 
or if we get involved in other kinds of stability operations.
    With that, I will end my comments and look forward to 
answering any questions. Thanks.
    [The prepared statement of Mr. Kosiak can be found in the 
Appendix on page 44.]

STATEMENT OF SHARON L. PICKUP, DIRECTOR, DEFENSE RESOURCES AND 
BUSINESS TRANSFORMATION ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
    OFFICE, ACCOMPANIED BY WILLIAM SOLIS, DIRECTOR, DEFENSE 
  CAPABILITY AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Pickup. Mr. Chairman, Mr. Hunter, and members of the 
committee, thank you for the opportunity to be here today to 
discuss the Government Accountability Office (GAO)'s work on 
military readiness. I think that my opening remarks would 
reflect those of the chairman and Mr. Hunter and the other 
witnesses in terms of the high pace of operations and its 
effect on the military and also that the military now has a 
ground force with considerable experience and is battle tested, 
but also stressed.
    Clearly, Congress and this committee, in particular, has 
been focused on the impact of these commitments on readiness 
and has taken some decisive action such as establishing a 
defense material readiness board and requiring roles and 
missions review. I would also like to add that the Congress has 
provided unprecedented levels of funding in response to DOD's 
requests, which have consistently emphasized the need for 
resources to maintain readiness.
    In fiscal year 2007 alone, DOD had about $600 billion in 
combined available funding to cover base needs and costs of 
ongoing operations. Just as an aside, I would like to add that 
while the Department still separates these needs into two sets, 
we believe the lines are becoming increasingly blurred.
    GAO has evaluated military readiness for decades, including 
personnel and equipment, and training. And my statement today 
will cover two topics: first, the readiness implications of 
DOD's continued efforts to support current operations; and 
second, recommendations that GAO has made which we believe will 
improve the Department's ability to manage and improve 
readiness.
    It is clear that DOD has overcome difficult challenges in 
maintaining a high pace of operations. But these commitments 
have had significant consequences for readiness and that the 
Department has taken a number of extraordinary measures to 
support the ongoing rotation, such as increasing the length of 
deployments and the frequency of Reserve mobilizations. While 
it has adjusted some of the standards for recruiting and 
retention, it is unclear what the long-term impact will be, 
especially with the Growing the Force initiative in terms of 
the Department's ability to recruit and retain a high-quality 
force.
    Transfer of equipment and prepositioned stocks has effected 
the availability of items for nondeployed units. And training 
has been refocused on counterinsurgency missions with little 
time to train on a fuller range of missions.
    And finally, the Department has adopted strategies such as 
relying more on the Air Force and Navy and contractors to 
perform some tasks typically handled by ground forces. If 
current operations continue at the present level of intensity, 
DOD could face difficulty in balancing these commitments with 
the need to rebuild and maintain readiness.
    On the second point, rebuilding readiness of the ground 
forces while maintaining current commitments, is clearly a 
long-term and complex process and will require hundreds of 
billions of dollars. At the same time, DOD faces competing 
demands for resources, given other initiatives to grow, 
modernize, and transform its forces. There are no quick fixes, 
but we believe the Department can take measures to advance 
progress in both the short and long-term.
    Given the significant funding implications, it is 
imperative that DOD take a more strategic approach that 
promotes transparency and ensures that investments are based on 
sound plans with measurable goals, validated requirements, and 
performance measures to gauge progress. This is a long way of 
saying that DOD must have a solid basis for its funding 
requests and be able to demonstrate to the Congress and 
taxpayer what it is getting for the money in terms of improved 
readiness.
    Broadly, we have recommended that DOD develop a near-term 
plan for improving readiness of ground forces that, among other 
things, establish specific goals for improving readiness, 
prioritizes as actions needed to achieve those goals, and 
outlines an investment strategy to clearly increase certain 
needs and funding requests. We have also recommended actions in 
specific areas which are included in my statement.
    This concludes my remarks. And I look forward to answering 
your questions.
    [The prepared statement of Ms. Pickup can be found in the 
Appendix on page 53.]
    The Chairman. Thank you very much. Let me ask you a couple 
of questions first.
    Ms. Flournoy, General McCaffrey testified before the 
Oversight and Investigations Subcommittee just several days 
ago. And he stated that 10 percent of the Army recruits should 
not be in uniform. Do you have any thought regarding the status 
of those recruits, how good they are or to the contrary?
    Ms. Flournoy. Well, the figures I had suggested that 1 in 
5, so about 20 percent, are receiving some kind of waiver, 
educational, moral or medical, to enter into the force. I know 
that the Army has begun tracking what happens to those people 
once they are in the force in terms of how their performance in 
various areas measures against the sort of average for the rest 
of the force. But I think it is very early days, since this is 
a fairly new practice, the extensive use of waivers. I think it 
is fairly early days to be judging how this is working.
    What I can say is I have talked to a number of commanders 
who anecdotally have cited concerns. The experience of having 
to spend more and more of their command time worrying about a 
certain number of problem children in their units. So I think 
it is something that it is hard to make an absolute judgment at 
this early point in time. But it is something that I would 
encourage you all to start tracking very closely because I 
think it has the potential to be a quality issue if not managed 
very carefully.
    The Chairman. Did you say the Army is beginning to track 
that now?
    Ms. Flournoy. That is my understanding, yes.
    The Chairman. To your knowledge, will there be a report----
    Ms. Flournoy. I don't know if there is a report, but I have 
some data that suggests they are tracking it closely. And I 
would encourage you to ask to be briefed on that.
    The Chairman. Well then, we can ask the Army when they 
reach a conclusion thereon.
    Let me ask each of you this. The chairman of the Joint 
Chiefs, Admiral Mullen, and his predecessor, General Pace, 
assess the current risk--at General Pace's time, the current 
risk then, in executing the national military strategy, to be 
significant and increased from the risk assessment of two 
years. Do you agree, disagree? And tell us your conclusion 
thereof.
    Ms. Flournoy, start with you.
    Ms. Flournoy. I would agree with that assessment simply 
because when you look at security environment, there are a 
number of scenarios where crises could arise and require some 
kind of U.S. military response. And although it is certainly 
fair to say that we have ready Air Force and Navy units that 
would be prepared to respond, there are some contingencies that 
would require a rapid ground response. And right now, we have 
very, very limited capacity, given how heavily taxed our units 
are in Iraq and Afghanistan.
    You know, I believe that we need to fully resource the 
current missions that we have. But I also think that we should 
acknowledge that we are accepting a significant level of 
strategic risk in so doing. And it is very important to try to 
take steps to expand the reserve of ready ground force brigades 
or mobile units (MUs) that could be available for contingency 
response because right now, we do not have what we should have 
as a global power with global interests.
    The Chairman. If you look over the past 30 to 31 years and 
count the military contingencies that we have had, they have 
been scattered over the 30, 31 years roughly 2 to 3, 4 years in 
between, and all of them unexpected. And our challenge is to be 
ready should one of those come to pass in the near future. And 
that, of course, is a concern of this committee.
    Mr. Kosiak.
    Mr. Kosiak. Well, I guess I would sort of echo what Michele 
said. And I don't want to get too far away from my budgetary 
expertise. But I think it does depend on what kind of scenarios 
you are looking at.
    I think the stress that the Army and Marine Corps are under 
is enormous. The stress that the Navy and the Air Force are 
under is substantial, but significantly less. I think if it is 
a contingency that can be managed with air or naval forces, you 
know, we are sitting much better.
    In the event it does require ground forces, that could 
depend in part on obviously the size of the operation, but 
especially the duration of the operation. I think we can scrape 
together something to, you know, wage a short-term conflict, I 
think. But I think we have very little capability to certainly 
expand any kind of long-term conflict somewhere else that is on 
the ground.
    The Chairman. Thank you.
    Ms. Pickup.
    Ms. Pickup. Right. We haven't quantified in any way the 
risk. And I wouldn't want to underestimate the ability of our 
military to respond. But clearly, all the different things that 
DOD is doing to support the current operations can have an 
effect on our ability to respond.
    And I think, you know, in particular, the amount of time 
that it would take to train forces and to cross-level equipment 
with the situation that we find ourselves with our 
prepositioned stocks and to man and deploy units, you know, 
clearly would be stressful, which is one of the reasons why we 
have kind of in our recommendations to the Department talked 
about the need to, you know, start rebuilding and do it in a 
sound manner that maximizes the funds available to it. But, you 
know, clearly, in the near-term, the longer the operations go 
on at the current levels strains our readiness and effects our 
ability to respond quickly to other events.
    The Chairman. Thank you very much.
    Mr. Saxton.
    Mr. Saxton. Well, thank you, Mr. Chairman.
    Ms. Flournoy, in your statement you made a number of 
statements that I would just like to ask you about. The one 
statement that you made which was troubling I think you may 
have modified a bit in answer to one of the chairman's 
questions. You said that since 2006 the Army has met yearly 
recruiting goals, but it has taken some fairly extraordinary 
steps to do so, including moral waivers.
    But in the answer to your question you said that it is hard 
to make an absolute judgment on those issues. And I am glad 
that you modified what you said in your statement because we 
have looked at this issue at some length, and we have found 
that in some cases, soldiers with waivers actually do better 
than soldiers without waivers.
    For example, waivered soldiers had a lower loss rate in 
entry-level performance. The waivered soldiers' loss rate was 
three percent while the nonwaivered soldiers' loss rate was 
four-and-a-half percent. They also had lower rates of personal 
disorder. The waivered soldiers' rate was about .9 percent. The 
nonwaivered soldiers' rate was 1.1 percent.
    The waivered soldiers had lower rates of unsatisfactory 
performance. Their rate of unsatisfactory performance was about 
.26 percent. The nonwaivered soldiers' rates was about double 
that. And I could go on down the list. And then there were some 
areas where waivered soldiers didn't do as well.
    And so, I think it is a bit premature, let us say, to say 
that the waiver process in itself is inherently flawed because 
some of the waivers are given for things like one use of 
marijuana. That would deserve a waiver.
    And so, I guess I would just like you to respond. And 
again, I am glad that you modified your statement by saying it 
is hard to make an absolute judgment in these cases because of 
varying results and performance by soldiers with waivers.
    Ms. Flournoy. Sir, I flagged this as an area to watch 
because I am aware of the data that you cited. And I think it 
is a mixed bag. In some cases, these waivered soldiers become, 
you know, models in the Army. In other cases, they don't, and 
they show greater difficulty in meeting Army standards.
    So I think it is something that we need to watch over time 
and watch carefully because the hallmark of the force has 
always been its quality. And as we grow, the biggest challenge 
is to maintain that quality of a larger force.
    So again, I think the jury is out. I think there is some 
very positive data, but also some data of concern. And we just 
need to watch it very closely over time.
    Mr. Saxton. Okay, thank you. That is good.
    Let me ask you retention goals. In your statement you 
stated that although the Army continues to meet its overall 
retention goals, it is beginning to experience serious 
retention problems in key parts of the force. My information is 
that the active Army is actually doing quite well in meeting 
its overall retention goals in all categories.
    The Army is actually exceeding its goals in many. The most 
deployed Army divisions have an exceptionally high reenlistment 
rate, for example in all categories. And I think you have 
probably seen the information that back that up.
    In the Army National Guard, which measures retention 
against a specific annual expected attrition of 19.5 percent, 
the actual annual attrition rate for 1999 was 5.4 percent. For 
2006, it was 4.7 percent. And for 2007, it was 4.3 percent. And 
in the Reserve, which has an expected attrition of 28.6 
percent. The actual annual attrition was 6.5 percent in 1999. 
In 2006, it was 4.9 percent. I am sorry, in 2007, it was 4.9 
percent.
    Those seem to be pretty good, particularly when taken in 
the context of your statement, which says that the overall 
retention goals are beginning to experience serious problems. I 
don't understand. Maybe you can clear that up.
    Ms. Flournoy. Yes. In my statement, I acknowledged that the 
good news is that company-grade loss rates have remained fairly 
stable, which, I think, is what you are citing. The challenge 
really comes from the combination of multiple--you know, the 
high ops tempo, but more importantly, the growth, so that as 
the force grows, the denominator changes.
    You actually have to have a higher than historical 
retention rate in order to fill out the ranks of company-grade 
officers and non-commissioned officers (NCOs) in the force. And 
so, we have to do better on retention than we ever have before 
in order to have the quality of leadership we need in a larger 
force.
    So I was trying to flag that. At a time when, I think, we 
are finding it challenging to meet historical rates of 
retention, we actually have to retain even more to be able to 
support expansion.
    Mr. Saxton. Unfortunately, I don't have the numbers here 
for the active Army. But I do have the numbers--or at least 
some numbers--for the Army Guard and the Army Reserve. And they 
appear to be doing just what you suggest, doing better than 
they have historically been expected to do. Would you agree 
with that?
    Ms. Flournoy. Well, I would balance that against the very 
real shortages that we see in both company-grade and majors. 
Major shortage is at least 17 percent at this point. So I think 
there is a problem in terms of meeting some of the targets 
associated with expansion.
    Mr. Saxton. Yes, you made the point in your statement with 
regard to the West Point class of 2001. Forty-six percent of 
the West Point class of 2001 and 54 percent of the West Point 
class of 2000 have already left the Army. Army data is a little 
bit different. The Army does not dispute that reducing officer 
attrition is an important objective and asserts that an 
unprecedented effort is underway to accomplish that goal.
    Army data shows that the U.S. Military Academy attrition at 
the end of 5 years is actually 30 percent for classes 
graduating from 1992 to 2002. And at the 6-year mark, the 
attrition for classes of 1992 through 2001 is 46 percent. So 
those numbers are a little different than what you said, I 
believe, in your testimony.
    Ms. Flournoy. Yes. I think we have dueling data here, sir. 
I have a data released by the U.S. Military Academy. And the 
overall historical average since 1976 is about 40 percent loss, 
the last 10 classes, 45 percent loss, and then the most recent 
2 classes, closer to 50 percent loss. So I think I am happy to 
get with your staff and compare data to see if we can sort that 
out.
    Mr. Saxton. We appreciate that. Let me just ask you one 
final question with regard to high school diplomas. In your 
statement you said that in fiscal year 2007, only 79 percent of 
the recruits had high school diplomas. I was wondering if you 
included in that 79 percent the National Guard Youth Challenge 
Program General Educational Development (GED) certificates, 
which we continue to be hopeful will hold up as a level of 
accomplishment that will permit people to be gainfully 
retained, recruited and retained in the Army.
    Ms. Flournoy. Sir, I believe that figure is for active 
duty, but I can double-check that for you.
    Mr. Saxton. Right. My understanding of your statement was 
that 79 percent of the recruits had high school diplomas.
    Ms. Flournoy. Right.
    Mr. Saxton. And do you question whether or not the National 
Guard Youth Challenge Program GED is an appropriate level of 
accomplishment and achievement which we would require to join 
the Army?
    Ms. Flournoy. Well, I was simply noting that the--I think 
the historical standard has been 90 percent with a high school 
diploma. And I think it is important to try to continue to meet 
that goal.
    Mr. Saxton. So you don't have an opinion on the National 
Guard Youth Challenge Program?
    Ms. Flournoy. No, I don't. I haven't looked at it closely.
    Mr. Saxton. Thank you, Mr. Chairman.
    Ms. Flournoy. Thank you.
    Mr. Ortiz [presiding]. Thank you so much for joining us 
this morning. You know, the readiness challenges faced by the 
United States military, especially the ground forces are 
extremely concerning on many different levels. My good friend, 
Representative Abercrombie, and I have a resolution that speaks 
to the declining readiness of the ground forces and 
acknowledges the strategic risk that the United States has in 
assuming because of the shortfalls that we have--we have 
introduced House Resolution 834.
    Unfortunately, with continuous operations in Iraq and the 
Department's inability to offset readiness decline, the time it 
will take to restore military readiness gets longer and longer 
every day. At this point, over what timeframe is it realistic 
to expect that those challenges could be fully addressed? Maybe 
you can give us a little what you think as to how long it will 
take to really fully address that issue.
    Ms. Pickup. Well, I don't know that I would be comfortable 
saying in years. But, you know, I mean, it is obviously a long-
term and complex prospect. And I think in the near-term as long 
as the current operations are sustained at the current pace and 
intensity, rebuilding readiness while engaging in those 
commitments is just going to be difficult.
    But I do think, as I said in my opening remarks, that the 
Department has some things that it can do, one of which is to 
come up with a plan as to, given the funding that it receives 
on an annual basis and then if there are supplemental fundings, 
to establish some goals as to which part of the force and at 
what level they want to increase and improve readiness over 
time. Because right now I think what we see is very difficult 
to equate the funding to any, you know, tangible outcome as far 
as improved readiness.
    And I think with the Grow the Force initiatives and the 
modularity, I mean, clearly, you are actually talking in the 
long term to have more people and units to train and equip. So 
I think that is a long-term prospect as well. But in the short 
term I think it is quite reasonable for the Congress to expect 
the Department to be able to say in the next two to five years 
this is what our plan is and this is what our goal is, to get 
more units at the higher levels of readiness.
    Mr. Ortiz. Anybody else that would like to respond to that 
question?
    Mr. Kosiak. I would add a little to that. I guess there are 
three parts to it. One is it is hard to know how long it will 
take to recover when we are not likely to simply end the 
operations in Iraq and Afghanistan. So they are likely to 
continue at some level. So it is sort of going to be an ongoing 
process, I think, of trying to, you know, build up readiness.
    I would say in the case of equipment, in many cases--I 
think I mentioned in my statement, you know, it takes two years 
to get a piece of equipment, you know, from the time it is 
appropriated, funding is appropriated for it to get it into the 
hands of servicemembers. So I think at a minimum, even when you 
are done, there is going to be a lag of a couple of years 
before the services get all their equipment.
    And then beyond that, I think the personnel issue is a more 
serious, potentially long-term issue in terms of recovering 
because, you know, obviously some members of the military are 
only there for a few years. Some are there for 20 years, some 
for more.
    But I think that is also a very complicated issue, as 
Congressman Saxton and Michele pointed out. It is hard to know 
just how serious the problems are in that area. But I think it 
is an area that, you know, potentially--and that is the reason 
you really want to look at it so closely and you want to track 
things so closely because that is potentially sort of the 
longest term kind of problem area to recover from.
    Mr. Ortiz. You know, we have seen that the Department has 
initiated some initiatives, such as the Grow the Force and 
reset. I was just wondering whether that is adequate enough to 
fully address the seriousness. You know, because we are going 
through a lot of--it is a big ball of wax when we look at the 
prepositioning stock. Then we have grown the force by at least 
70,000 soldiers. And when you don't have the equipment, how are 
you going to train them?
    Because it has come to our knowledge that in many instances 
maybe a year ago some of the soldiers did not have the 
equipment to go fight a war until they arrived in Kuwait. So, 
you know, and to build the equipment takes several years. You 
don't just say you need, you know, 40 Humvees or 50 tanks and 
you are going to get them the next day. It takes time. And some 
of that equipment has been damaged.
    Do you think that those initiatives are adequate to fully 
address the needs that we encounter today?
    Ms. Pickup. Well, I am going to have my colleague, Bill 
Solis, come up to address some of the specific prepositioning 
and equipment issues that you are asking about. But I do think 
it is important to note that the Department itself has some 
pretty significant and lengthy timelines in terms of some of 
their reset and prepositioning plans. And I also think that 
some of our other work suggests that while they do have 
strategies, it is not really clear to what extent, particularly 
with equipment, that their strategies are addressing the near-
term versus the long-term needs.
    And one last thing in terms of the training area, we have 
said that because of the focus on counterinsurgency that they 
do need to look at some near-term potential adjustments that 
they can make to start incorporating more full spectrum 
training into the curriculum. But I will have Mr. Solis address 
some of the more specifics about equipment.
    Mr. Ortiz. Sure. Go ahead.
    Ms. Flournoy. Sir, if I may just add to that, I think in 
addition to the Grow the Force initiative and the reset and the 
modernization investment, there are some force management 
things that I think should be looked at in terms of whether we 
can shift the balance even further between the institutional 
Army, meaning the nondeployed Army, and the deployable part, 
the operational part of the Army. I think it is worth looking 
carefully at whether more of the Army could be made deployable 
and whether we can get force management to actually identify 
additional individuals who could deploy that haven't deployed 
yet.
    I have heard many anecdotal examples of people who are 
dying to get to the fight and have trouble getting there 
because of how they are coded or their certain Military 
Occupational Specialty (MOS) or what have you. So I think the 
force management issue is another area that we might help in 
the short term.
    Mr. Solis. I would just offer in terms of the prepositioned 
equipment issues, the recent work that we have just completed 
for the committee indicates that the reset of prepositioned 
equipment will not occur, at least until 2015, and that is with 
the download of APS-3 and the reset of APS-5. So it is going to 
take some time.
    I think the estimate is somewhere between $10 billion to 
$12 billion to do that, although it is not really clear if that 
number--what that really covers because it is not clear in the 
budget estimates. But that is one example in terms of answering 
the question how long is this going to take.
    I think in reset--what we heard--now, some of this is pre-
surge--it would cost the Army somewhere between $10 billion to 
$12 billion, $13 billion a year for reset for up to 2 years 
after end of operations. But again, I am not sure if that 
number still holds or if, given things like the surge or other 
commitments or the amount of time that passes, if that number 
will go up. But clearly, it is going to take more time after 
the, you know, operations substantially end in Iraq and 
Afghanistan.
    Mr. Ortiz. Thank you so much. And another question would 
be, you know, whether we are utilizing our depot facilities to 
do some of this work. But I don't want to take all the time.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. And excuse me for 
having to break out of this very important hearing a couple of 
times.
    Let me ask you if you folks have any idea on how we get a 
good handle on precisely what we have in theater, both the 
stuff that is what you might consider war fighting equipment 
and the stuff that is support in nature.
    I talked to some of our Reserve folks last night and 
yesterday, and they talked about enormous expenditures 
purchasing things like freightliner trucks which are now over 
in theater. I think we have got lots of dirt-moving equipment, 
things that could be used by the Guard and Reserve back here in 
their domestic capacity when the governor puts his hat on and 
moves the Guard out to perform homeland missions, domestic 
missions.
    I think the first thing we have got to do is figure out 
what we have got. And do you have any ideas on how we would 
structure this inventory-taking, if you will? And first, do you 
think we should do it?
    Ms. Flournoy. Sir, I actually think it is a very important 
idea, and it is something we should do, both to know what we 
can bring home as part of resetting the force, what it would be 
better just to leave, and what we might want to cascade to the 
Iraqis as we build the institution of their army and their 
police forces. I would be loathe to add that burden to the 
operational force right now in terms of what they are trying to 
do. But it might be possible to task the individual services to 
send teams over to do that assessment for you.
    Mr. Hunter. Okay. Okay.
    Mr. Kosiak. Sir, I absolutely believe that is a great idea, 
and I think it should be done. I think, I believe, and I am not 
absolutely sure, but I believe the Army G-4 has undertaken 
something like this. So I think that would be a starting point 
to see what exactly they have done to try to get a handle 
around all the equipment that is not only in theater, but back 
here in the states. But I do think that is an absolutely good 
thing to do before we go about looking at what we need to buy 
for the future in terms of equipping the troops, not only back 
here, but for other conflicts.
    Mr. Hunter. Well, I have sure talked to lots of folks that 
came back and didn't bring their stuff back and largely because 
they said, hey, we will keep it here, and other people may need 
it when they get here.
    One of the members of this blue ribbon panel on the 
National Guard recommended the--he said, you know, here we have 
got this domestic system where we barcode everything, and you 
have got these vast inventories that are instantly retrievable 
in terms of numbers and what you have got. Do we barcode our 
equipment in the services and the Guard? Do you know if we have 
any kind of a barcode system?
    Mr. Kosiak. There is a unique identifier code, but once it 
goes into the pool of theater provided equipment I am not sure 
exactly how they account for that over there.
    Mr. Hunter. Okay. Okay.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    The title of this hearing today is military readiness 
implications for our strategic posture and just make two or 
three comments and then get you all's response to that, will be 
all I will do. But ultimately will we be better off as a 
country when we in the Congress are having a hearing, perhaps 
joint hearings, called--rather than call it military readiness 
implications for our strategic posture we call it national 
security implications or national security readiness 
implications for our strategic posture?
    I note, Ms. Flournoy, number 10 on your list was you said--
I think your words were ``this is perhaps beyond the purview,'' 
were your words. But number 10 on your list was increase the 
deployable operational capacity of civilian agencies to reduce 
the burden on the U.S. military and increase the chances of 
mission success.
    And then this study by RAND--not the RAND study that has 
been in the paper the last few days, but one called, ``War By 
Other Means.'' And in their section on investment priorities, 
they talk about the additional money that they think it will 
take to do counterinsurgency. And they get up in the range of 
$20 billion to $30 billion additionally to do the kind of 
counterinsurgency that we ought to do.
    But a substantial amount of it is not going for additional 
military readiness. It has to do with other kinds of capacity. 
So I would like you all to respond to the question. Are we 
perhaps asking the wrong question? Should we be having a more 
expansive question when we talk about our national security 
readiness?
    And we will begin with you, Ms. Flournoy.
    Ms. Flournoy. I do think we should think more broadly in 
terms of the whole of government readiness, you know, for not 
only current operations, but future operations. Many of the--I 
would say, the majority--of the tasks that are critical to 
success in either Afghanistan, Iraq or just about any other 
operation you can imagine in the future are going to be 
fundamentally nonmilitary in nature. They are going to be 
economic, political, governance-related, and so forth.
    And right now what we are seeing is the absence of 
deployable operational civilian capacity as having two very 
detrimental effects on our military. One is they are 
experiencing tremendous mission creep as they have to undertake 
tasks for which, you know, really belong to--should belong to 
someone else.
    And two, it impairs our exit strategy as it becomes very 
difficult to achieve the nonsecurity-related goals that would 
enable our ultimate transition out. So I think looking more 
broadly, as you suggest, at the national security requirements 
and readiness for future operations would be a very useful 
thing to do.
    Dr. Snyder. Mr. Kosiak.
    Ms. Pickup. The only thing I would add to that, too, is--
and I agree. You have to look at both. You have to look at the 
impact on our military. But you have to look at the broader 
issue. And I think this is where the committee and the Congress 
have been going with requiring the roles and missions review.
    And, you know, the question is how much more can our 
military handle and what should it take on, and what 
adjustments does it have to make in its own force structure if 
there are certain things that it will take on, such as 
stability operations. And as Michele mentioned, you know, the 
participation of the military in, not only the transition 
teams, but the provincial reconstruction teams and some of the 
economic development, et cetera, I mean, that just raises the 
broader question as to, from an interagency perspective, you 
know, what should the Department handle vis a vis the other 
agencies. So I think it is a very good question.
    Mr. Kosiak. Yes, I would agree. It is, I think, a very good 
idea to look at in a sort of broader definition of national 
security. And I think in budgetary terms, of course, you have a 
significant amount of money going to the Department of Defense, 
you have a significant amount of money going to international 
affairs areas, and you have a significant amount going to 
homeland security.
    And those are all obviously important areas. And then sort 
of thinking in budgetary terms, you want to, you know, 
understand how much you are spending in each of those areas and 
what the cost and benefits of each of those areas are.
    Also, there is a lot of overlap. I mean, DOD is involved in 
all of those. DOD is involved obviously in Iraq and Afghanistan 
and those kinds of operations. But they are heavily involved in 
homeland security and would be, certainly, if we had any kind 
of weapons of mass destruction used here. And they are also 
involved heavily in a lot of important areas in sort of 
executing our foreign policy and foreign assistance. So I think 
that would be great.
    Dr. Snyder. Ms. Flournoy's statement there about increasing 
the operational capacity of civilian agencies also leaves off 
the question of the whole issue of interagency relationships, 
just having a deployable capacity doesn't mean that you will 
actually get the job done or that they will get there in a 
timely fashion or do what you want them to do in the way that 
you want them to do in terms of working with other agencies.
    Thank you, Mr. Chairman.
    The Chairman. Randy Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank all of you for being here. I am going to talk 
quickly because I only have a limited amount of time. But I 
think sometimes we get so far down in the weeds that we lose 
sight of the overall landscape.
    I remember a few years ago I walked in on a conversation 
with two friends of mine. And one of them was talking about a 
baseball team, and he was talking about how terrible the second 
baseman was, how bad the pitchers were, the weakness of the 
left field or how bad their batting was. And I looked to my 
other friend. I said who is he talking about. And he rolled his 
eyes, and he said he is talking about the team that just won 
the World Series.
    And I think as I look, Ms. Flournoy, at your statement, one 
of the big things we need to keep in mind is--and I am assuming 
this is still correct because it is dated today's date. But you 
said having just gotten back from two weeks in Iraq that you 
had the privilege of witnessing a U.S. military that is the 
most experienced, adaptive, professional, and capable force 
this country has ever fielded.
    And I assume that we all know they are more experienced. 
But I would assume that that means they are a more adaptive, 
more professional, more capable force than they were in 2000?
    Ms. Flournoy. I would say because of the incredible 
operational experience they have had, yes.
    Mr. Forbes. More adaptive, professional, and capable force 
than 2003?
    Ms. Flournoy. As I said, I think the most--probably more 
than----
    Mr. Forbes. More than 2005?
    Ms. Flournoy. In terms of the operational force, yes.
    Mr. Forbes. So then basically the force we have today is 
more adaptive, professional, and capable than they were in 
2000, 2003, 2005. You also say in your testimony--you say the 
bottom line of these most recent findings is that while the 
Reserve component is intended for use in overseas operations 
and homeland defense, it is not fully manned, trained or 
equipped to perform these missions. The gap in Reserve 
readiness creates a significant and little-noticed 
vulnerability in both disaster response and readiness for 
operations abroad.
    Can you tell me if the Reserve component was fully manned, 
trained, and equipped for the missions you describe on 
September 10, 2001 or, for that matter, any time prior to 2000?
    Ms. Flournoy. I think the Reserve component has been 
chronically under-resourced. But I think the degree of its 
under-resourcing is particularly acute now. I think the 
contrast I was trying to draw, sir----
    Mr. Forbes. And you can put whatever you want in writing. I 
have just got five minutes. You have got to talk quick.
    Ms. Flournoy. Okay, I am sorry.
    Mr. Forbes. Can you answer my question? Were they at 
September 10, 2001 or any time prior to 2000--were they fully 
manned, trained, and equipped for the missions you describe?
    Ms. Flournoy. No.
    Mr. Forbes. They were not? So we had, in your opinion, then 
a vulnerability in both disaster response and readiness for 
operations abroad in September of 2001 as well.
    Ms. Flournoy. Yes, we did. And it has gotten worse.
    Mr. Forbes. Okay.
    Mr. Kosiak, I would like to ask you a question now. If you 
can answer it today, fine. If you can't, if you would get back 
to us.
    Based on your experience, can you tell us what it would 
cost today to create and sustain an Army, a Navy, and an Air 
Force that are all C-1 fully resourced and ready across the 
board to support the national military strategy?
    Mr. Kosiak. Well, I think I certainly couldn't really 
answer that. I think the Congressional Budget Office has done 
some work in that area looking at plans over the next 10 or 20 
years. Their estimate, I think, to actually execute the current 
plan, which includes modernization as well as readiness-related 
areas, you would have to probably increase spending on the 
order of $50 billion a year more. So you would have a steady 
state budget that would be $50 billion higher than what we are 
currently projecting, something of that magnitude.
    Mr. Forbes. $50 billion if you were going to reach that 
goal?
    Mr. Kosiak. Correct.
    Mr. Forbes. Now, back to the question I asked Ms. Flournoy, 
if you were listening there. If we made the choice as a nation 
to fully man, train, and equip our Reserve component at C-1 
levels, current C-1 levels the way we measure them today, what 
would that cost? And would we, in fact, even be able to sustain 
a C-1 Reserve component? Wouldn't our Reservists have to be in 
every weekend to train if they were to maintain a C-1 level? 
What is your thoughts?
    Mr. Kosiak. I am not really suited to answer that question, 
I am afraid.
    Mr. Forbes. So you don't have any estimates of cost on----
    Mr. Kosiak. No.
    Mr. Forbes. Okay, good.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Flournoy, you stated that the Reserve 
forces are worse today than they were? Mr. Forbes asked you 
about the initial date.
    Ms. Flournoy. I think what I would like to highlight is the 
degree of equipment shortage and the degree of personnel 
shortage is, to my knowledge, higher now than it has been in 
recent memory because of the extent to which we have used the 
Guard and Reserve components in operations and the extent to 
which we have under-resourced them budgetarily.
    The Chairman. Ms. Gillibrand.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    Thank you all for your testimony. I want to go back to the 
issue that we began to address of the Reserve components. What 
recommendations do you have for how we can strengthen them. 
Particularly I am concerned about recruitment and retention 
because you cited some statistics in your testimony about the 
reduction in recruitment and retention.
    And Mr. Chairman had asked a number of us under the 
leadership of Congressman Cooper to work on a roles and 
missions panel to begin to think about these issues, think 
outside the box, make some suggested recommendations about 
areas to review. And one of the areas that we discussed for the 
Reserve component was to increase recruitment by offering some 
flexibility in terms of whether new members would prefer to be 
stateside mission only or take on foreign missions as a 
recruitment tool that would be non-binding. So obviously if we 
needed them all in theater abroad, they could all be sent 
abroad.
    In your opinion, would that increase retention and 
recruitment? Also, a second suggestion that was discussed was 
whether or not we could train the Reserve components to be 
stabilization forces because they have some traditional 
training in terms of rebuilding efforts. They have a skill set 
unique to the National Guard and Reserve, some being engineers, 
some being plumbers, some being transportation specialists and 
having those unique backgrounds of being in the private sector.
    Do you think it would be possible to look to the Reserve 
component, particularly the Guard as a stability force, both 
for natural disasters, terrorist attacks here at home, but also 
for rebuilding forces when we need them abroad? Because your 
initial testimony was about engaging the civil agencies. This 
might be another place to look to create a stronger force, 
greater readiness, greater recruitment and retention down the 
road. And I just want your thoughts if that is something worth 
discussing or you see some problems in that area.
    Ms. Flournoy. Thank you. Let me start with your last point. 
I do think we can make better use of our Reservists in terms of 
looking for critical civilian skills that reside in the 
Reserves when we are conducting stability operations, 
counterinsurgency, and so forth. I am actually the wife of a 
Reservist who is mobilized mainly for his civilian skills to be 
deployed in support of Afghanistan.
    So I think we could do a better job of that. Although I 
would advise against restricting the mission of the National 
Guard or any part of the Reserves to only stabilization because 
I think they play important roles across the spectrum.
    In terms of your idea of recruiting----
    Mrs. Gillibrand. But would you expand it, not necessarily 
restrict it, but expand it to make sure that they could do all 
of the various new missions? Because you were talking earlier 
about how the missions of all our active duty and Reserve 
components have been expanded under the current operations 
required for Afghanistan and Iraq.
    Ms. Flournoy. Yes.
    Mrs. Gillibrand. So I am not really talking about reducing 
it at all. I would keep them having--have their military 
readiness for combat but adding to that the specialized 
training to be a real force that can do stability operations 
and rebuilding if necessary if we find ourselves in this kind 
of situation again.
    Ms. Flournoy. I think greater attention to preparation and 
training for the full range of missions, including stability 
operations in terms of the irregular warfare part of the 
spectrum--I think that would be a positive thing.
    In terms of recruitment, I will just preface this by--I 
haven't looked at this closely, but my concern about the idea 
of recruiting separately for sort of a domestic Guard versus an 
overseas is that you might undermine--I mean, you might 
actually get an overwhelming response for the domestic side and 
actually undercut your ability to effectively recruit for 
overseas missions or vice versa. It also presents some fairly 
significant force management challenges in terms of managing 
individuals who have different preferences within the same unit 
and maintaining unit cohesion.
    So I am not sure exactly how that would work. But I think 
two of the areas that Congress can take definite action on is 
bringing the Reserves up to their authorized level of equipment 
in terms of fully funding them and personnel and also looking 
at the variety of contracts.
    Right now we have got this sort of weekend warrior model 
and the active duty model. And I think there is ample room to 
create levels of service and commitments in that middle range 
that would allow us to get more out of our Reserve component in 
support of current demands.
    The Chairman. Thank you. Before I call Mrs. Davis, what 
about the readiness of our National Guard to assist in natural 
disasters?
    Ms. Flournoy. Sir, my understanding is that, you know, the 
issue there is for units that have left equipment overseas that 
is somewhat constraining their readiness to respond to some 
contingencies at home. It is not universal, but some units it 
is a problem.
    The Chairman. Mrs. Davis.
    Mrs. Davis of California. Thank you very much. And I am 
sorry I missed your testimony. But if I could try and just pick 
up from a few of the other thoughts and a few of your brief 
remarks, Ms. Flournoy. You cite the need for mid-level officers 
and the need for incentives. And part of that, I think, we 
would greatly support because it speaks to the need for more 
education, more dwell time, more think time that is really 
needed for people to be the great officers that we hope for in 
this country.
    And I am wondering how that then really jives with the need 
that we have to keep people engaged in an active way. How do 
you think we best do that? Is that through greater end 
strength? Is that through allowing us to have people take that 
time off in order to do that?
    Ms. Flournoy. Again, I think it is a very important issue. 
I think the way to create that additional flextime is to grow 
the overall size of the force, but particularly the operational 
part of the force.
    I think it would be very interesting to try to do a survey 
of people who are choosing to get out as to why they are 
choosing to get out because my anecdotal information suggests 
that a lot of these people love the service, love serving their 
country, would love to stay in, but they just, after deployment 
three or deployment four, they just need a little bit of a 
break. They need a year to go to school. They need a year to 
see their family, and then they are willing to go at it again.
    So that is anecdotal information. But I think if we grow 
the force, and particularly move more of the institutional 
force into the operational force, grow the size of the pool for 
deployment, we would hopefully over time create more of the 
flextime that would allow us to do a better job of retaining 
the best quality officers.
    Ms. Pickup. And I guess what I would add to that is that 
these operations have also given us some more information on 
this reliance on the other services as well. And, you know, one 
of the things that we have recommended is that DOD have better 
data on these strategies that they have used to, in particular, 
rely on the Air Force and the Navy to perform some of the tasks 
formally handled by ground force missions--ground forces and 
also to evaluate the impact and the feasibility of either 
continuing those strategies or modifying those strategies.
    And I guess it is a long way of saying it is looking at 
joint sourcing solutions as well because there have been some 
experiences gained in that manner. So that might be something 
to look toward the future. And the fact of the matter is the 
reason why they have had to rely on the Air Force and Navy is 
because exactly what you were talking about.
    There are certain areas where folks have been repeatedly 
deployed because of their specialty skills. And it has placed 
more stress on them.
    Mrs. Davis of California. Yes. Do you see being able to 
expand that? And I know several of my colleagues have talked 
about the interagency reform, the ideas that we have been 
trying to put forth to help us go beyond the military 
solutions. And I am wondering do you see a way of conjointly 
training for missions that would have the military capability, 
but in many ways, reaching out to civilians who, in fact, want 
to have the opportunity to serve in a fashion but are not in 
the service or are not in the military. Are we missing 
something in not being able to deal with that in a much more 
creative fashion?
    Ms. Flournoy. Yes. I think we are missing an opportunity. 
And again, just coming out of Iraq, I saw many, many military 
officers doing jobs that I would have thought should be done by 
civilian experts. But they were doing them--and power to them, 
and thank God to them. But, you know, they were doing it 
because there was nobody else to do it.
    There was not adequate capacity, and they were stepping up 
to the plate and doing governance and doing rule of law and 
doing negotiations between parties because they were the only 
ones there. So I think augmenting our military with effective 
civilian capacity could be a huge benefit to the Nation.
    Mrs. Davis of California. Do any of you see doing that in a 
more formal fashion? I mean, civilian academies--we obviously 
have schools that have great conflict resolution programs and 
whatever. But I am just thinking of the ideas that have been 
put forth that really would create those kind of academies that 
would bring in more civilian personnel, the kind of folks who 
might work for nongovernmental agencies but, you know, don't.
    Ms. Pickup. Well, I guess the only thing I would add is 
that I think it needs to start with a fundamental reassessment 
of the roles and missions and, you know, what the role of the 
military is and what exactly should the military be doing 
versus the other agencies. And then from there you can decide 
what the mechanisms are and what the educational requirements 
are and what the coordination mechanisms are to reflect those 
roles and missions.
    Mrs. Davis of California. Thank you.
    The Chairman. Thank you.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    Thank you, panel, for testifying today. I know my neighbors 
were called to other hearings and other votes.
    I would just like to mention that we all know that our 
servicemen and women in Iraq and Afghanistan are doing a 
fantastic job. And in many of their cases, they are doing 
actually civil affair jobs, so-called nation building, some of 
which aren't really trained to do that. But they do their job 
without complaining.
    When I visited Afghanistan last year and asked some of the 
troops about their experiences, one said to me, ``Sir, we are 
here. Where the hell is everybody else.'' He wanted to know why 
his soldiers were doing the civil and political jobs that are 
really the responsibility of the U.S. Agency for International 
Development (USAID) and the State Department.
    Ms. Flournoy, one of your recommendations is that to 
increase the deployable operational capacity of civilian 
agencies to reduce the burden on the U.S. military, increase 
the chances of mission success. I agree. I think the question 
for the group is how. So I will ask the panel quickly.
    Our Army is at a breaking point because of repeated 
deployments to Iraq. So what can we do to get the rest of our 
government off the sidelines right now so that our troops can 
focus on being the war fighters and not the nation builders? 
Thank you.
    Ms. Flournoy. I would start by saying I think there are 
three or four components. The first is billets. We don't have 
enough civilian spaces, if you will. We need more civilian 
personnel in government. I think we need to create a civilian 
reserve, and I think we need to enhance our ability to contract 
civilian personnel with the required specialties.
    Second, incentives--right now the incentive structure in 
our various agencies does not necessarily reward or promote 
operational experience or preparation therefore. So I think 
creating incentive structures that say if you want to make 
senior executive service, you have got to be, you know, doing 
operational things----
    And the final thing is the education and training. We don't 
invest in the professional development of our civilians the way 
we do in our military. We need to create a serious professional 
development program if we are going to grow the kind of 
civilians that can do the integrating function for operations 
as complex as Afghanistan or Iraq.
    Ms. Pickup. One other thing I would add to that--and we 
have some work going on, for example, on these provincial 
reconstruction teams which are, in some cases, a shared 
responsibility between the military and State and AID. And I 
think one of the things that we are looking at is whether there 
needs to be any policies and procedural changes from a 
personnel standpoint to incentivize and to, you know, kind of 
change the rules of engagement for civilians overseas in the 
foreign service----
    Because, you know, the military obviously has an obligation 
to be mobilized and deployed. Whereas the rules governing 
civilians in combat environments are not quite the same 
obligations.
    Mr. Murphy. I think a follow-up that I would have is that 
under the incentives, the system doesn't reward operational 
experience. Can you expound on that?
    Ms. Flournoy. Well, if you take, for example, within the 
State Department, the kinds of embassy assignments that 
historically have gotten you promotions have been in the 
capitals of major allies, not necessarily in conflict zones. 
Nor have we focused on the sort of operational skill sets.
    A lot of our diplomats--their training has been focused on 
representing the United States and reporting back on what they 
see in whatever embassy they are as opposed to the sort of 
nitty gritty negotiation, conflict resolution, political type 
of skills. So I think that there is room for creating a cadre 
of people who are really focused on operational issues and who 
are signing up for careers of going to multiple operations over 
time.
    And we should reward that. And we should incentivize it 
appropriately. And we just don't do that today within the State 
Department or USAID or any other civilian agency.
    Mr. Murphy. And does that type of change have to be 
mandated by Congress? Or does it have to just be--it sounds 
like a different culture is needed. But how do we make that 
change become a reality?
    Ms. Flournoy. I think the incentive changes could be done 
at the leadership level in the departments. But the resources 
are needed--Congress needs to provide the necessary resources 
to support both the expansion of the number of people, their 
training and professional development and so forth.
    I think if the agencies fail to change that incentive, you 
have the precedent of something like Goldwater-Nichols where 
you make a legislative change that fundamentally changes an 
incentive.
    The Chairman. I thank the gentleman.
    Mr. Solis, may I ask you a question? I assume the GAO has 
looked at the training of our forces. Am I correct?
    Mr. Solis. That is correct.
    The Chairman. Do our Army brigades receive enough training 
to be able to undertake a combined arms operations against a 
conventional military right now?
    Mr. Solis. Well, I think if you look at what we used to 
do--for example, we had rotations to the National Training 
Center to do maneuver operations. We had the Joint Readiness 
Training Center (JRTC) where we did operations for our light 
infantry.
    Those rotations are not--we are not doing the same level of 
that kind of thing anymore. Most of the time when we come back 
for the training, it is to get ready to go back to do the 
counterinsurgency type. So I think in terms of those kinds of 
things, we are not doing the heavy maneuver-type of operations 
or training that we did in the past.
    The Chairman. Those skills are perishable, am I correct?
    Mr. Solis. Yes.
    The Chairman. In your opinion, how long would it take to 
restore that capability, Mr. Solis?
    Mr. Solis. I think, you know, it depends in terms of the 
intensity. For example, it is what you are training for. Some 
of this would occur at home station in small, company-level 
exercises. You would begin to do that as well as the graduate-
level exercise, as I mentioned, in the National Training 
Center.
    So it takes time. I mean, it takes time to do a lot of 
these different things in terms of the different missions. The 
one thing I would add--and I would think that needs to be 
discussed at some point is how many more missions can the 
military do in terms of the types of missions, not only the 
high-end, but the stability operations, which General Casey has 
now said is going to be a core mission, the reconstruction-type 
things.
    There is a lot of things that are being put on the plate of 
the military right now, particularly the Army. So I think when 
you start putting all those things together, it creates a lot 
of time constraints on the ability to train in any 
circumstance.
    The Chairman. As was brought out in the discussion with Mr. 
Murphy a few moments ago, the other agencies have not lived up 
to their billing in assisting and so much has fallen on the 
backs of the military. Am I correct in Afghanistan and Iraq?
    Mr. Solis. That is correct. And another thing that I think 
this committee may want to look into and we allude to in the 
testimony is the use of contractors in deployed locations in 
contingency operations. Today in Iraq and Afghanistan, I 
believe we have almost 200,000 contractors that are supporting 
DOD alone.
    And that is not just with Logistics Civil Augmentation 
Program (LOGCAP). That is with linguist intel officers, 
unmanned aerial vehicle (UAV) operators, a whole host of folks 
who are providing support to the military. And the question 
becomes from a strategic piece into the future well, how will 
the reliance upon contractors, particularly for operations, be 
looked at, particularly in the war plans and operational plans 
and will they be there when we need them.
    The Chairman. I have no further requests for a time. So, 
ladies and gentlemen, we really appreciate your being with us. 
It has been very helpful. It is an area that our committee 
intends to continue working on. It is the right thing to do, 
plus it is our constitutional duty. So we appreciate it so 
much.
    The meeting is adjourned. Thank you.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 14, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4782.001
    
    [GRAPHIC] [TIFF OMITTED] T4782.002
    
    [GRAPHIC] [TIFF OMITTED] T4782.003
    
    [GRAPHIC] [TIFF OMITTED] T4782.004
    
    [GRAPHIC] [TIFF OMITTED] T4782.005
    
    [GRAPHIC] [TIFF OMITTED] T4782.006
    
    [GRAPHIC] [TIFF OMITTED] T4782.007
    
    [GRAPHIC] [TIFF OMITTED] T4782.008
    
    [GRAPHIC] [TIFF OMITTED] T4782.009
    
    [GRAPHIC] [TIFF OMITTED] T4782.010
    
    [GRAPHIC] [TIFF OMITTED] T4782.011
    
    [GRAPHIC] [TIFF OMITTED] T4782.012
    
    [GRAPHIC] [TIFF OMITTED] T4782.013
    
    [GRAPHIC] [TIFF OMITTED] T4782.014
    
    [GRAPHIC] [TIFF OMITTED] T4782.015
    
    [GRAPHIC] [TIFF OMITTED] T4782.016
    
    [GRAPHIC] [TIFF OMITTED] T4782.017
    
    [GRAPHIC] [TIFF OMITTED] T4782.018
    
    [GRAPHIC] [TIFF OMITTED] T4782.019
    
    [GRAPHIC] [TIFF OMITTED] T4782.020
    
    [GRAPHIC] [TIFF OMITTED] T4782.021
    
    [GRAPHIC] [TIFF OMITTED] T4782.022
    
    [GRAPHIC] [TIFF OMITTED] T4782.023
    
    [GRAPHIC] [TIFF OMITTED] T4782.024
    
    [GRAPHIC] [TIFF OMITTED] T4782.025
    
    [GRAPHIC] [TIFF OMITTED] T4782.026
    
    [GRAPHIC] [TIFF OMITTED] T4782.027
    
    [GRAPHIC] [TIFF OMITTED] T4782.028
    
    [GRAPHIC] [TIFF OMITTED] T4782.029
    
    [GRAPHIC] [TIFF OMITTED] T4782.030
    
    [GRAPHIC] [TIFF OMITTED] T4782.031
    
    [GRAPHIC] [TIFF OMITTED] T4782.032
    
    [GRAPHIC] [TIFF OMITTED] T4782.033
    
    [GRAPHIC] [TIFF OMITTED] T4782.034
    
    [GRAPHIC] [TIFF OMITTED] T4782.035
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 14, 2008

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. CUMMINGS

    Mr. Cummings. The suicide rate among active-duty soldiers in 2007 
is at the highest level ever experienced since the Army started keeping 
record of suicide statistics amongst our troops. The Marine Corps have 
also seen a slight increase of suicides during 2007 with a rate of 17.5 
per 100,000. a) During your research and study did you see any efforts 
or reports at the Department of Defense that capture suicide statistics 
and trends for all military Services, to include Reservists and 
National Guardsmen and family members? b) What efforts at the DOD level 
are in place to provide a complete Department-wide analysis of these 
high suicide rates? In addition how much is the Defense budget is 
dedicated to decreasing the suicide rate?
    Ms. Flournoy. I received your question and appreciate your close 
attention to the readiness challenges of the U.S. military, especially 
the ground forces. The active involvement of the Congress in these 
issues is vital to improving the health of the armed forces and to 
guarding against strategic risk to the nation. I look forward to doing 
what I can to continue to support your efforts.
    Regarding your question about the suicide rates among active-duty 
soldiers in 2007, I have not seen any DOD reports, but the Army does 
appear to be tracking those trend lines. My own statements about the 
rise in suicide rates come from conversations with colleagues in the 
office of the Army Chief of Staff and from recent press reports. If I 
do learn more about DOD reporting on suicide trends in the Army, I will 
contact your staff to share what I learn.
    Mr. Cummings. In October 2007 ``A Comprehensive Strategy for 21st 
Century Seapower'' was introduced at the International Sea Power 
Symposium as the new Maritime Strategy. The strategy called for 
combined operations of the United States Navy, Marine Corps, and Coast 
Guard to act across the full range of military operations to secure the 
United States from direct attack; secure strategic access and retain 
global freedom of action; while strengthening existing and emerging 
alliances. Throughout your research were you able to take a look at 
this proposed strategy in regards to readiness taking in consideration 
the United States Navy, Marine Corps and Coast Guards unique missions 
and current operational tempo, personnel, and equipment statistics?
    Ms. Flournoy. I am familiar with the new maritime strategy, but I 
have not assessed its implications for the readiness of the U.S. Navy, 
U.S. Marine Corps, or U.S. Coast Guard in detail. However, I understand 
that many of the engagement ventures described in the strategy would be 
conducted as part of steady-state activities under the normal rotation 
cycles of the services.
    Mr. Cummings. The current Defense Budget request includes $389 
million or $246 million above previously enacted funds, to launch the 
new Africa Command initiative. Particularly, funds will be utilize to, 
1) strengthen the U.S. security cooperation with African countries; 2) 
train and equip our partners; 3) improve health, education, and 
economic development; and 4) promote peace and stability. As you are 
aware, Africa Command officially attained its initial operation 
capability as of October 1, 2007 and is scheduled to achieve full 
operation capability a little less than a year from now--on October 1, 
2008. To achieve this targeted goal, a number of issues relevant to the 
location of the headquarters, composition and overall apprehensiveness 
by some key leaders within the continent of Africa must be resolved. 
What is your opinion of how great of a strain the development of 
AFRICOM will place on our current military, especially given that the 
President has requested nearly $389 million for FY09 funding for this 
initiative?
    Mr. Kosiak. It is difficult to assess how significant a strain the 
development of AFRICOM will be for the U.S. military. Much will depend 
on how the command operates and the range of activities it becomes 
involved in. In the context of at $518 billion FY 2009 request for the 
Department of Defense (DOD), $389 million for AFRICOM should be 
manageable. On the other hand, given the extent to which the Services 
are currently overstretched with operations in Iraq and Afghanistan, 
one needs to be cautious about any expansion of U.S. military 
commitments.
    Mr. Cummings. My question is in regards to the recruitment and 
retention of minority officers and the Department of Defense's efforts 
to increase the demographics of Flag Officers across the DOD. Secretary 
Gates stated in his testimony before this committee last week that the 
FY2009 base budget provides $15.5 billion to increase the active Army's 
end strength 532,400 and grow the Marine Corps' end strength to 
194,000. First, do you believe that this funding is enough to really 
increase the force to these levels and thereby, improve readiness? 
Second, do you believe that a portion of the funding should be targeted 
toward the recruitment and retention of minority officers given that 
the current levels are dangerously low?
    Mr. Kosiak. I believe that $15.5 billion should be roughly adequate 
to fund the planned increase in Army and Marine Corps end strength. 
This figure is close to the estimates of those costs provided by the 
Congressional Budget Office (CBO). Given the recent decline in 
recruitment rates for African Americans in particular, which have--
since the beginning of the All Volunteer Force (AVF)--traditionally 
figured especially prominently in the Army's ability to sustain a high 
quality force, it may be appropriate to target additional funding to 
recruiting and retaining African American and other minority personnel.
    Mr. Cummings. What impact is the use of individual augmentees and 
in-lieu of forces having on individual and unit readiness? And how does 
the Department of Defense's strategic plan resolve these issues in the 
short term and long term?
    Ms. Pickup. While DOD has established metrics to formally report 
unit readiness, it does not formally report individual readiness. 
Nonetheless, CENTCOM's demands for individual augmentees and in-lieu of 
forces have created challenges for individuals from across the force. 
Leaders and personnel from selected high demand occupations--engineers, 
explosive ordnance disposal, security forces, intelligence, and 
others--have experienced high deployment rates, with many personnel 
deployed at rates above DOD's deployment goals. These goals generally 
call for active forces to spend twice as much time at home as deployed 
and for reserve component forces to spend five times as much time at 
home as mobilized. CENTCOM's demands for individual augmentees and in-
lieu of forces have had a mixed impact on unit readiness. CENTCOM's 
high demand for leaders to fill individual augmentee and other 
requirements, such as transition teams, have left fewer of these key 
personnel available to fill units that are not deployed to the CENTCOM 
area of operations. Shortages in personnel, including leaders, reduce 
units' readiness levels. However, because deployed units generally have 
higher readiness levels than non-deployed units, the high deployment 
rates in the communities that are deploying in-lieu of units may 
actually cause readiness rates to increase within those communities. To 
our knowledge, DOD does not have a strategic plan that specifically 
addresses these issues.
    Mr. Cummings. On January 31st the Commission on the National Guard 
and Reserve issued its final report and cited substantial shortcomings, 
notably in equipment, training, and personnel of the reserve 
components. The report also noted that the U.S. military is not 
prepared for a catastrophic attack on the country, and NG forces do not 
have the equipment or training they need in order to do their job. 
Fewer Army National Guard units are combat-ready today than were nearly 
a year ago when the Commission on the National Guard and Reserves 
determined that 88 percent of the units were not prepared. What plans 
are being considered in the future of the reserve components readiness 
posture and ensuring their ability to respond to a major Weapons of 
Mass Destruction attack on our nation?
    Ms. Pickup. The reserve components of the Army--the Army National 
Guard and the Army Reserve--have borne a heavy burden in continuing to 
support the ongoing high operational tempo. Because the Army's reserve 
components were considered primarily later-deploying forces, they were 
maintained at lower levels of readiness for combat than their active 
counterparts. However, to support operational requirements with ready 
units, the reserve components transferred personnel and equipment to 
deploying units, which left fewer personnel and less equipment with 
nondeployed forces to train for future missions and for the National 
Guard units to use for their state missions, such as responding to 
natural disasters. The Army has taken steps, such as providing 
additional equipment directly to deploying units to ensure that they 
are equipped for their missions, although in some cases units are 
provided certain equipment items only while they are in the theater of 
operations. The Army has stated its intent to equip Guard and reserve 
forces to a readiness level similar to that of active Army units in the 
future. However, the timeframe for equipping Guard units has been 
delayed by 8 years from initial estimates to 2019, and costs have not 
been fully defined. In addition, the Army has a number of initiatives, 
including growing the force and prepositioning equipment, that will 
compete for funding over the period.
    As we have reported, how ready the nation is to respond to a large 
scale, multi-state incident, such as an attack involving weapons of 
mass destruction is not clear because the multiple state and federal 
agencies that would be involved in responding have not yet completed 
and integrated their plans. This planning is the first step toward 
identifying the types and quantities of personnel and equipment that 
would be needed to respond to such an event. The Department of Homeland 
Security, which is the lead federal agency responsible for preventing, 
preparing for, and responding to a wide range of major domestic 
disasters and other emergencies, conducts strategic level planning. DHS 
does not conduct detailed operational planning that identifies specific 
types and quantities of personnel and equipment needed to respond 
relying instead on the states or other federal agencies such as DOD to 
identify specific requirements. The recent National Planning annex to 
Homeland Security Presidential Directive 8 requires DHS and other 
federal agencies to conduct much more detailed operational planning as 
well as integrate their combined planning efforts. If this effort is 
consistently and diligently pursued, the key federal agencies, 
particularly DHS and DOD, may begin to have a much better understanding 
of the requirements necessary to respond to an incident involving a 
weapon of mass destruction (WMD) in the United States. In its 2005 
Strategy for Homeland Defense and Civil Support, the Department of 
Defense has stated that it will be prepared to provide forces and 
capabilities in support of domestic chemical, biological, radiological, 
nuclear and high yield explosive (CBRNE) consequence management, with 
an emphasis on preparing for multiple, simultaneous mass casualty 
incidents. DOD has created some specialized capability for CBRNE 
response, such as

        <bullet>  a dedicated command and control element (currently 
        the Joint Task Force--Civil Support);

        <bullet>  National Guard Weapons of Mass Destruction Civil 
        Support Teams and CBRNE Enhanced Response Force Packages;

        <bullet>  and an active component CBRNE Consequence Management 
        Response Force (CCMRF).

    However, these forces are only meant to provide an initial response 
to a CBRNE incident. Further, DOD has not fully resourced the CCMRF, 
and DOD plans to rely on dual-capable forces for the domestic CBRNE 
consequence management mission, just as it does for missions of support 
to civil authorities for natural disasters.
    The National Guard Bureau has initiatives under way to enhance the 
capability of the National Guard to respond to some types of mass 
destruction attacks. For example, in addition to the establishment of 
55 22-person WMD Civil Support Teams, the National Guard Bureau 
established 17 CBRNE enhanced response force packages, which are 
designed to locate and extract victims from a contaminated environment, 
perform mass casualty/patient decontamination, and provide medical 
treatment in response to one of these events. The National Guard Bureau 
is also in the final stage of defining and identifying resourcing for 
temporarily covering the CCMRF requirements, which are expected to 
include more than 15,000 personnel trained and equipped for a response 
to a domestic WMD attack. However, it is not clear to what extent DOD 
will fund these initiatives or the level of preparedness DOD funding 
will achieve.
    The 2008 National Defense Authorization Act directed DOD to include 
reports on the National Guard's readiness to perform tasks required to 
support civil authorities during events envisioned by the National 
Response Plan in its quarterly reports on personnel and unit readiness. 
However, until DOD issues these reports, the readiness posture of 
National Guard for domestic missions, including readiness to respond to 
a major weapons of mass destruction attack, will remain unclear.
    Mr. Cummings. What actions are being taken to protect the funding 
and budget of the operational forces to meet their readiness 
requirements for security of our homeland?
    Ms. Pickup. As stated above, with a few exceptions, it is DOD's 
policy to rely on dual capable forces to support homeland missions, and 
it has dedicated few forces specifically for this mission. For example, 
the 55 National Guard CSTs are dedicated solely to the mission of 
assisting civil authorities in responding to WMD incidents in the 
United States. While the National Guard CBRNE Enhanced Response Force 
Packages are designed to meet the domestic response mission, they are 
composed of units and personnel who may be activated and deployed as 
part of overseas missions. This is also the case with the larger CBRNE 
consequence management response force (CCMRF). This means that the 
readiness of these forces will be subject to DOD's warfighting 
priorities. U.S. Northern Command, which is responsible for DOD's 
homeland defense and civil support missions in the continental United 
States, has very few actual forces assigned to it. As a result, the 
command must rely on the same pool of dual-capable forces that can be 
tasked with other DOD missions. The CBRNE consequence management 
response force (CCMRF) is intended to be an active component force to 
provide assistance to civil authorities in the event of one or more 
weapons of mass destruction incidents. However, due to the scope and 
pace of ongoing operations overseas, DOD has been unsuccessful in fully 
activating these units. There remains a significant amount of confusion 
about how these units will be fully manned and equipped. In the short 
term, the use of National Guard units to fill the requirements raises 
funding concerns and questions about whether state or federal 
authorities would exercise command and control during a CCMRF response. 
In the long term, it is not clear how DOD intends to fully source the 
CCMRF with active duty units.
    With the exception of the CSTs, there are therefore very few funds 
``protected'' in terms of being dedicated solely to homeland missions. 
However, the fiscal year 2008 National Defense Authorization Act 
requires DOD to develop a plan for funding military-unique capabilities 
for civil support.\1\ The act calls for the Secretary of Defense to 
develop and implement a plan, in coordination with the Secretaries of 
the military departments and the Chairman of the Joint Chiefs of Staff, 
for providing funds and resources necessary to develop and maintain, 
among other things, the military-unique capabilities needed to be 
provided by the DOD to support civil authorities in an incident of 
national significance or a catastrophic incident. However, while this 
may help DOD gain a better understanding of its civil support 
requirements and the capabilities it needs to maintain to meet them, 
none of these provisions requires DOD to establish and fund 
capabilities that would be dedicated solely to the homeland mission.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 110-181, Sec. 1815 (2008).
---------------------------------------------------------------------------

                                  <all>

</pre></body></html>
